No. 19-1009

3fn tltbe

~upreme QCourt of tbe fflniteb ~tate~
ALTERA CORPORATION

& SUBSIDIARIES,
Petitioners,

v.
COMMISSIONER OF INTERNAL REVENUE,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR PRICEWATERHOUSECOOPERS LLP, DELOITTE TAX LLP,
AND KPMG LLP AS AMICI CURIAE IN SUPPORT OF PETITIONERS
CERTIFICATE OF SERVICE
I, Melissa Arbus Sherry, counsel for Amici Curiae PricewaterhouseCoopers
LLP, Deloitte Tax LLP, and KPMG LLP, and a member of the Bar of this Court,
hereby certify that on the 16th day of March, 2020, three (3) copies of the Brief for
PricewaterhouseCoopers LLP, Deloitte Tax LLP, and KPMG LLP as Amici Curiae in
Support of Petitioners, filed in the above-entitled case, were sent by first-class mail,
postage prepaid, upon counsel for Petitioners and Respondent as listed below:
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

Counsel for Petitioners

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief for PricewaterhouseCoopers LLP, Deloitte Tax LLP, and KPMG
LLP as Amici Curiae in Support of Petitioners was transmitted to each above-listed
counsel via the referenced email addresses.
I further certify that all parties required to be served have been served.

By_i~11..v....1-i..J.!.+..t.&------J::i-::.--.-UJ."4-~

Me ·
LAT

~~~

&WATKINSLLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
melissa.sherry@lw.com
Counsel for Amici Curiae
PricewaterhouseCoopers LLP,
Deloitte Tax LLP, and KPMG LLP

2

